                                                                             Report No. DODIG-2013-125




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 29, 2013




                     Quality Control Review of the
                     PricewaterhouseCoopers, LLP
                     FY 2011 Single Audit of
                     SRI International




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500


                                                                                          August 29, 2013


Board of Trustees
SRI International

Executive Director of Financial Operations
SRI International

Audit Partner
PricewaterhouseCoopers, LLP

SUBJECT: Quality Control Review of the PricewaterhouseCoopers, LLP FY 2011
	        Single Audit of SRI International (Report No. DODIG-2013-125)

We are providing this report for your information and use. As the cognizant Federal agency for
SRI International, we performed a review of the PricewaterhouseCoopers, LLP single audit
and supporting work papers for the fiscal year ended December 31, 2011. The purpose of our review
was to determine whether the single audit was conducted in accordance with government auditing
standards, the American Institute of Certified Public Accountants’ auditing standards, and the auditing
and reporting requirements of Office of Management and Budget (OMB) Circular A-133, “Audits of
States, Local Governments, and Non‑Profit Organizations.” Appendix A contains additional criteria,
scope, and methodology of the review; and Appendix B lists the compliance requirements that
PricewaterhouseCoopers determined to be applicable to the FY 2011 audit.

The PricewaterhouseCoopers, LLP audit generally met auditing standards and OMB Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations,” requirements. However, we
identified deficiencies related to the review of the special tests and provisions requirement, work paper
documentation, and the preparation of the data collection form that need to be addressed in future single
audits. SRI International generally met OMB Circular A-133 requirements except the data collection form
was not accurate and complete because it did not identify the name of the pass-through entity.

We considered management comments on the draft of this report. The management comments were
responsive; therefore, additional comments are not required.

We appreciate the courtesies extended to the audit staff. For additional information on this report, please
contact Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877).




	                                              Randolph R. Stone
	                                              Deputy Inspector General
	                                              Policy and Oversight



                                                                                                   DODIG-2013-125 │ i
                  Contents
                  Introduction
                  Background_______________________________________________________________________________________1
                  Review Results___________________________________________________________________________________1
                  Management Comments and DoDIG Response________________________________________________1

                  Finding A
                  Federal Program Audit Performance and Documentation____________________________________2
                  Special Tests and Provisions Requirement_____________________________________________________2
                  Work Paper Documentation_____________________________________________________________________3
                  Recommendations, Management Comments, and Our Response____________________________3

                  Finding B
                  Data Collection Form Preparation _ ____________________________________________________________5
                  Recommendations, Management Comments, and Our Response____________________________5

                  Appendixes
                  Appendix A. Quality Control Review Process_ ________________________________________________7
                  Appendix B. Compliance Requirements_______________________________________________________9

                  Management Comments
                  PricewaterhouseCoopers, LLP _ ______________________________________________________________ 10
                  SRI International_______________________________________________________________________________ 13

                  Acronyms and Abbreviations______________________________________________ 14




ii │ DODIG-2013-125
                                                                                                                                  Introduction




Introduction
Background
SRI International (SRI) is an independent, nonprofit research institute headquartered
in Menlo Park, California. SRI conducts client-sponsored research and development for
government agencies, commercial businesses, foundations, and other organizations. SRI
expended $424.2 million in Federal awards for the fiscal year ended December 31, 2011,
under one Federal program, the research and development cluster. Of the $424.2 million,
$295.2 million was expended for Department of Defense programs.


Review Results
The PricewaterhouseCoopers, LLP (PwC) audit generally met auditing standards1 and
Office of Management Budget (OMB) Circular A-133, “Audits of States, Local Governments,
and Non-Profit Organizations,” requirements. However, we identified deficiencies related
to the review of the special tests and provisions requirement, work paper documentation,
and the preparation of the data collection form (Findings A and B). These deficiencies
need to be addressed for future single audits. SRI generally met OMB Circular A-133
requirements except the data collection form was not accurate and complete because it
did not identify the name of the pass-through entity (Finding B).


Management Comments and DoDIG Response
PwC and SRI agreed to take the recommended actions. Management comments were
responsive and no additional comments are needed. Management comments are included
in their entirety at the end of the report.




	1	
      Auditing standards include both government auditing standards and the American Institute of Certified Public Accountants’
      auditing standards.




                                                                                                                              DODIG-2013-125 │ 1
Finding A




                 Finding A
                 Federal Program Audit Performance
                 and Documentation
                 PwC did not document adequate audit procedures to support its conclusions on SRI’s
                 internal control and compliance with special tests and provisions. In addition, the
                 documentation of the Federal program audit did not always provide a clear description
                 of audit procedures performed and evidence obtained to support the conclusions on
                 allowable costs/cost principles and the non-applicable compliance requirements.

                 Auditing standards require that audit documentation be appropriately detailed to
                 provide a clear understanding of the work performed, the evidence obtained, and the
                 conclusions reached. The documentation and audit evidence should be in sufficient
                 detail to enable an experienced auditor with no previous connections to the audit to
                 understand the nature, timing, extent, and results of audit procedures performed that
                 support the significant judgments and conclusions. In addition, audit documentation
                 should be appropriately organized to provide a clear link to the findings, conclusions,
                 and recommendations.



                 Special Tests and Provisions Requirement
                 PwC adequately obtained an understanding of internal controls to ensure compliance
                 with special tests and provisions and properly identified key personnel as a special
                 provision that would need to be tested. However, PwC did not adequately document
                 the audit procedures performed to test internal control over and compliance with key
                 personnel requirements. As a result, the auditors were required to provide additional
                 verbal explanations and documentation to support their audit conclusions.

                 The work paper documentation did not provide a clear audit trail to the internal control
                 testing performed. In addition, the work papers included some evidence of internal
                 control and compliance testing, but the documentation did not provide sufficient detail
                 for a reviewer to evaluate the adequacy of the audit procedures performed and the
                 sufficiency of the audit evidence for the testing of key personnel. In response to our
                 inquiries, additional documentation and explanations were provided to support
                 conclusions on the key personnel requirements. The auditors explained that they
                 performed internal control testing by verifying that the SRI project briefs accurately
                 reflected Federal award information, including key personnel requirements. Our review
                 of the work paper showed that although the auditors documented verification of some



2 │ DODIG-2013-125
                                                                                                Finding A



information on the SRI project briefs to the Federal award, the auditors did not document
key personnel requirements. Through our own analysis, we were able to verify that SRI
project briefs properly included key personnel information. For compliance testing, the
work paper documentation referenced the testing of compensation costs performed under
the allowable cost principles compliance requirement; however, the referenced work
paper did not identify the contracts with key personnel requirements, the key personnel
being tested, or the specific audit procedures performed related to the objectives of the
key personnel requirement. Based on our own review, we were able to identify that the
auditors tested some key personnel for compliance with the requirement.

As a result of our additional analysis and discussions with the auditors, we were able
to conclude that the auditors’ failure to document adequate audit procedures did not
negatively impact the overall audit and that additional audit procedures do not need to
be performed for the current year audit to support the auditors’ conclusions on the
special tests and provisions requirement. Nevertheless, for future audits, PwC must
identify in the work papers the contracts being tested that contain key personnel
requirements and must document the specific audit procedures performed for
the internal control and compliance testing related to the objectives of the key
personnel requirement.


Work Paper Documentation
The PwC auditors correctly identified the cost principles used for the allowable
cost/cost principles compliance testing, but the auditors did not identify the specific
section and subsection of the cost principles under which the allowability of each item of
cost was evaluated. In addition, while PwC identified the Davis Bacon and Real Property
and Relocation Assistance compliance requirements as not applicable to SRI’s major
program, the auditors did not adequately document the audit procedures performed to
support their conclusions. As a result, we had to obtain additional documentation and
verbal explanations in order to conclude that there was sufficient evidence to support
their conclusions.


Recommendations, Management Comments, and
Our Response
Recommendation A1
We recommend that, in future single audits, the Audit Partner, PwC:

         •	 Identify in the work papers the contracts being tested that contain key
           personnel requirements and document the specific audit procedures



                                                                                         DODIG-2013-125 │ 3
Finding A



                                 performed for the internal control and compliance testing related to the
                                 objectives of the key personnel requirement.

                              •	 Document the specific sections and subsections of the cost principles that
                                 were used to determine the allowability of each item of cost tested during the
                                 allowable cost/cost principles testing.

                              •	 Document audit procedures performed to support conclusions on the
                                 compliance requirements determined to be not applicable.

                     PwC Comments
                     The Audit Partner, PwC, agreed to take the recommended actions. Management comments
                     are included in their entirety at the end of this report.


                     Our Response
                     PwC comments were responsive to our recommendation. No additional comments
                     are needed.


                     Recommendation A2
                     We recommend that the Audit Partner, PwC, provide the Department of Defense Office of
                     Inspector General with the work paper documentation from the FY 2012 single audit that
                     demonstrates corrective action taken to address the deficiencies related to the special
                     tests and provisions, allowable cost/cost principles, and the non-applicable compliance
                     requirements.


                     PwC Comments
                     The Audit Partner, PwC, agreed to take the recommended actions. Management comments
                     are included in their entirety at the end of this report.


                     Our Response
                     PwC comments were responsive to our recommendation. No additional comments
                     are needed.




4 │ DODIG-2013-125
                                                                                                  Finding B




Finding B
Data Collection Form Preparation
PwC auditors did not correctly prepare the data collection form because they failed to
include the name of the pass-through entity for the Federal awards that SRI received as
a subrecipient. In addition, the SRI certifying official signed the data collection form,
stating that the information included in the form was accurate and complete, even though
the name of the pass-through entity was not included. An accurate data collection form
is necessary to allow pass-through entities to use the form in their monitoring of awards
provided to subrecipients.

OMB Circular A-133 §___.320(b)(2)(x) requires that individual programs within a
cluster of programs be listed in the same level of detail as they are listed in the schedule
of expenditures of Federal awards. OMB Circular A-133 §___.310(b)(2) requires that
for awards received as a subrecipient, the schedule of expenditures of Federal awards
include the name of the pass-through entity and the identifying number assigned by
the pass-through entity. OMB Circular A-133 and the data collection form instructions
require the auditors to complete and sign specific sections of the data collection
form and a senior‑level representative of the auditee to sign a statement on the
form certifying that the form is accurate and complete. As a result, for future audits,
PwC should include the name of the pass-through entity in the data collection form
and the SRI certifying official should verify that the information included in the data
collection form is accurate and complete.



Recommendations, Management Comments, and
Our Response
Recommendation B1
We recommend that the Audit Partner, PwC, prepare the data collection form according
to the OMB Circular A-133 requirements for future single audits. Specifically, the data
collection form should include the name of the pass-through entity for awards that SRI
receives as a subrecipient.


PwC Comments

The Audit Partner, PwC, agreed to take the recommended actions. Management comments
are included in their entirety at the end of this report.




                                                                                           DODIG-2013-125 │ 5
Finding B



                 Our Response
                 PwC comments were responsive to our recommendation. No additional comments
                 are needed.


                 Recommendation B2
                 We recommend that the Executive Director of Financial Operations, SRI, verify that
                 the information contained in the data collection form is accurate and complete before
                 certifying the form in accordance with OMB Circular A-133 requirements.


                 SRI Comments
                 The Executive Director of Financial Operations, SRI, agreed to take the recommended
                 actions. Management comments are included in their entirety at the end of this report


                 Our Response
                 SRI comments were responsive to our recommendation. No additional comments
                 are needed.




6 │ DODIG-2013-125
                                                                                           Appendixes




Appendix A
Quality Control Review Process
Criteria, Scope, and Methodology
Public Law 98-502, “The Single Audit Act of 1984,” as amended, was enacted to improve
the financial management of State and local governments and nonprofit organizations
by establishing a uniform set of auditing and reporting requirements for all Federal
award recipients required to obtain a single audit. OMB Circular A-133 establishes
policies that guide the implementation of the Single Audit Act and provides an
administrative foundation for uniform audit requirements of non-Federal entities
administering Federal awards. Entities that expend $500,000 or more in a year are
subject to the Single Audit Act and audit requirements in OMB Circular A-133. Therefore,
they must have an annual single or program-specific audit performed in accordance
with government auditing standards and submit a complete reporting package to the
Federal Audit Clearinghouse.

We reviewed the PwC’s FY 2011 single audit of SRI submitted to the Federal Audit
Clearinghouse on July 9, 2012, using the 2010 edition of the “Guide for Quality Control
Reviews of OMB Circular A-133 Audits.” The Guide is the approved Council of Inspectors
General on Integrity and Efficiency checklist for performing quality control reviews
of single audits. We performed the review from October 2012 through May 2013 in
accordance with the Council of Inspectors General on Integrity and Efficiency Quality
Standards for Inspection and Evaluation. The review focused on the following qualitative
aspects of the single audit:

         •	 Qualification of Auditors,

         •	 Independence,

         •	 Due Professional Care,

         •	 Planning and Supervision,

         •	 Audit Follow-Up,

         •	 Internal Control and Compliance testing,

         •	 Schedule of Expenditures of Federal Awards, and

         •	 Data Collection Form.




                                                                                       DODIG-2013-125 │ 7
Appendixes



                 Prior Quality Control Reviews
                 Since October 1, 2008, we performed two quality control reviews of PwC OMB
                 Circular A-133 audits. One review contained deficiencies resulting in findings and
                 recommendations on PwC’s audit performance and work paper documentation.
                 Unrestricted IG DoD reports can be accessed at http://www.dodig.mil/audit/reports.


                 DODIG Reports
                 DODIG Report No. DODIG-2013-048, “Quality Control Review of the PwC and the
                 Defense Contract Audit Agency FY 2010 Single Audit of the Institute for Defense
                 Analyses,” February 20, 2013

                 DODIG Report No. D-2011-6-004, “Report on Quality Control Review of the PwC and
                 the Defense Contract Audit Agency FY 2008 Single Audit of the Charles Stark Draper
                 Laboratory, Incorporated,” February 28, 2011




8 │ DODIG-2013-125
                                                                                                                              Appendixes




Appendix B*
Compliance Requirements
                                                                                                        Not Applicable/
        OMB Circular A-133 Compliance Requirements                               Applicable              Not Material
 Activities Allowed/Unallowed                                                         X
 Allowable Costs/Cost Principles                                                      X
 Cash Management                                                                      X
 Davis-Bacon Act                                                                                                  X
 Eligibility                                                                                                      X
 Equipment and Real Property Management                                               X
 Matching, Level of Effort, Earmarking                                                                            X
 Period of Availability of Federal Funds                                              X
 Procurement, Suspension, and Debarment                                               X
 Program Income                                                                                                   X
 Real Property Acquisition and Relocation Assistance                                                              X
 Reporting                                                                            X
 Subrecipient Monitoring                                                              X
 Special Tests and Provisions                                                         X




	*	
      This chart reflects PwC’s determination of the compliance requirements that are applicable and material to the
      major program.




                                                                                                                          DODIG-2013-125 │ 9
Management Comments




                 Management Comments
                 PricewaterhouseCoopers, LLP




                         July 31, 2013

                         Randolph R. Stone
                         Deputy Inspector General
                         Policy & Oversight
                         Department of Defense
                         4800 Mark Center Drive
                         Alexandria, Virginia 22350-1500

                         Dear Mr. Stone:

                         Thank you for providing a draft of the proposed report, Quality Control Review of the
                         PricewaterhouseCoopers LLP FY 2011 Single Audit of SRI International (the "Draft Report"). We
                         have reviewed the draft report and draft recommendations based on the quality audit review
                         performed by Felicia Fuller from October 2012 through June 2013. We appreciate the opportunity
                         to provide additional information and clarification on the potential findings noted therein.

                         Review Results

                         The Draft Report indicated that the PricewaterhouseCoopers audit generally met auditing standards
                         (which includes both Government Auditing Standards and the American Institute of Certified Public
                         Accountants’ auditing standards) and that except for certain matters of documentation noted below,
                         the audit documentation contained sufficient information to enable an auditor who has had no
                         previous connection with the audit to ascertain from the audit documentation the evidence that
                         supports the auditor's judgments and conclusions. The draft report indicates that the
                         documentation matters noted below did not negatively impact the overall audit and that additional
                         audit procedures do not need to be performed to support our conclusion on the special tests and
                         provisions requirement. The quality deficiencies noted are to be corrected in future audits. The
                         deficiencies identified related to the review of special tests and provisions requirement, work paper
                         documentation and the preparation of the data collection form.

                         Finding A – Special Tests and Provisions Requirement

                         The Draft Report states that PwC adequately obtained an understanding of internal controls to
                         ensure compliance with special tests and provisions and properly identified key personnel as a
                         special provision that would need to be tested. And, while it was determined that PwC did
                         sufficiently test special tests and provisions, it was not clear to the reviewer that key personnel
                         requirements were properly addressed. Generally accepted auditing standards require
                         documentation and audit evidence should be in sufficient detail to enable an experienced auditor
                         with no previous connections to the audit to understand the nature, timing, extent, and results of
                         audit procedures performed that support the significant judgments and conclusions. The work
                         paper documentation did not provide a clear audit trail to the internal control testing performed. In
                         addition, the work papers included some evidence of internal control and compliance testing, but the
                         documentation did not provide sufficient detail for a reviewer to evaluate the adequacy of the audit
                         procedures performed and the sufficiency of the audit evidence for the testing of key personnel. For
                         instance the specific names of key personnel tested were not listed on the working papers.


                         PricewaterhouseCoopers LLP, Three Embarcadero Center, San Francisco, CA 94111
                         T: (415) 498 5000, F: (415) 498 7100, www.pwc.com/us




10 │ DODIG-2013-125
                                                                                                            Management Comments



PricewaterhouseCoopers, LLP (cont’d)




        The auditors explained that they performed internal control testing by verifying that the SRI project
        briefs accurately reflected Federal award information, including key personnel requirements. Our
        review of the working paper showed that although the auditors documented verification of some
        information on the SRI project briefs to the Federal award, the auditors did not document
        specifically key personnel requirements. Through their own analysis, the Department of Defense
        reviewer was able to verify that SRI project briefs properly included key personnel information.
        Further, the Draft Report correctly identified the cost principles used for the allowable cost
        principles compliance testing, the auditors, however, did not list the specific section and subsection
        reference used to evaluate allowability of each type of cost. Finally the auditors did not explain
        adequately their basis for correctly determining that the compliance requirements -- Davis Bacon
        Act, Real Property and Relocation Assistance -- were not applicable.

        Inspector General Department of Defense Recommendation:

        We recommend that in future single audits the Audit Partner, PricewaterhouseCoopers, LLP:

            •   Identify in the work papers the contracts being tested that contain key personnel
                requirements and document the specific audit procedures performed for the internal control
                and compliance testing related to the objectives of the key personnel requirement.

            •   Document the specific sections and subsections of the cost principles that were used to
                determine the allowability of each item of cost tested during the allowable cost/cost
                principles testing.

            •   Document audit procedures performed to support conclusions on the compliance
                requirements determined to be not applicable.

            •   The Audit Partner, PricewaterhouseCoopers, LLP provide the Department of Defense Office
                of Inspector General with the work paper documentation from the FY 2012 single audit that
                demonstrates corrective action taken to address the deficiencies related to the special tests
                and provisions, allowable cost/cost principles, and the non-applicable compliance
                requirements.

        PwC Response

        Included in our documentation of our audit procedures performed for the FY 2011 SRI International
        Single Audit, we (1) selected a sample of 25 projects to ensure that the project briefs set up in Cost
        Point properly included the information in the contract; (2) tested 60 employees to, among other
        objectives, read the grants/contracts for special or specific personnel provisions and requirements,
        and verified that all requirements were met; (3) tested 60 cost transfers; and (4) additionally believe
        we obtained audit comfort over the special tests and provisions requirement through our testing of
        Separate Accountability for ARRA Funding, indirect cost testing and subrecipient monitoring
        procedures. We believe, as you have noted, that these tests adequately document the compliance
        audit requirements for direct cost testing and special tests and provisions. However, we understand
        the recommendation made above and will enhance our documentation over special tests and
        provisions, specifically as it relates to key personnel. We will also document more comprehensively
        why and how we concluded that any particular compliance requirement is not applicable. For
        instance, based upon our reading of the award agreement and objectives; and through discussion
        with management, we have concluded that the compliance requirements Davis Bacon Act, Real
        Property and Relocation Assistance are not applicable to SRI.




                                                                                                                  DODIG-2013-125 │ 11
Management Comments



                 PricewaterhouseCoopers, LLP (cont’d)




                         Additionally, while we do not believe it is specifically required to document the specific section and
                         subsections of the applicable cost principles we referred to beyond stating referral to the FAR, we
                         will ensure that we add that specific documentation to our audit documentation going forward.

                         We plan to share with Felicia Fuller the documentation included in our fiscal 2012 A-133 audit work
                         of our implementation of the recommendations above prior to our release of the FY 2012 Single
                         Audit for SRI International.

                         Finding B – Data Collection Form Preparation

                         PwC auditors did not correctly prepare the data collection form because they failed to include the
                         name of the pass-through entity for the Federal awards that SRI received as a subrecipient.

                         Inspector General Department of Defense Recommendation:

                         We recommend that the Audit Partner, PricewaterhouseCoopers, LLP prepare the data collection
                         form according to the OMB Circular A-133 requirements for future single audits. Specifically, the
                         data collection form should include the name of the pass-through entity for awards that SRI receives
                         as a subrecipient.

                         PwC Response

                         We have discussed this with management of SRI International and will coordinate with them to
                         ensure that the information included in the data collection form is consistent with the Department of
                         Defense Office of Inspector General interpretation of the requirements of OMB Circular A-133 for
                         the FY 2012 filing.

                         We would also like to respectfully suggest that the Department of Defence Inspector General
                         consider issuance of a communication to the auditor community, as well as recipients of Department
                         of Defense awards that explains their view that with respect to pass through awards, the data
                         collection form must include in part three the names of the pass through entities and the pass
                         through award number assigned by the pass through entities.

                         Overall, while we believe that the audit documentation related to the FY 2011 Single Audit for SRI
                         International was sufficient to support our judgements and testing of compliance requirements, we
                         do recognize the importance of clear documentation and will ensure that internal control and
                         compliance testing documentation in future years audits will enable an experienced auditor, with no
                         previous connections to the audit to understand the audit procedures performed.

                         Thank you for your consideration of our responses included above. We appreciate the
                         professionalism of Felicia Fuller throughout this process and would be pleased to discuss our letter
                         with you at your convenience.

                         Very truly yours,




                         By: Michael A. MacBryde
                         Engagement Partner




12 │ DODIG-2013-125
                    Management Comments



SRI International




                         DODIG-2013-125 │ 13
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      AICPA American Institute of Certified Public Accountants
                      OMB Office of Management and Budget
                       PwC PricewaterhouseCoopers, LLP
                        SRI SRI International




14 │ DODIG-2013-125
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
